APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Opinion in the Court of Appeals of Texas,
First District, Houston (December 29, 2020) ........... 1a
Judgment in the 209th District Court of Harris
County, Texas (February 27, 2019) ........................ 57a
Order in the Court of Criminal Appeals
(February 24, 2021) ................................................. 65a
Statutory Provisions Involved................................. 66a

1a
COURT OF APPEALS OF TEXAS, FIRST
DISTRICT, HOUSTON.
No. 01-19-00156-CR.
ANGEL LEE RANKIN,
Appellant,
v.
THE STATE OF TEXAS,
Appellee.
On Appeal from the 209th District Court, Harris
County, Texas, Trial Court Case No. 1325037
District Judge: The Honorable Brian Warren
Decided February 2, 2019
Before: KEYES, Justice, KELLY, Justice, and
LANDAU, Justice
(Opinion Issued: December 29, 2020)
Opinion
LANDAU, Justice
A jury convicted appellant, Angel Lee Rankin,
of murder. After rejecting her claim of sudden passion,
the jury assessed punishment at 15 years’
confinement in the Institutional Division of the Texas
Department of Criminal Justice. In four issues,

2a
Rankin contends that (1) the trial court erred by
denying her motion to suppress her statements,
(2) the evidence is insufficient to defeat her selfdefense claim, (3) the evidence is insufficient to
support the jury’s negative finding on sudden passion,
and (4) the trial court erred by denying her motion for
mistrial after a spectator’s outburst during defense
counsel’s opening statements. We AFFIRM.
Background
The Stabbing Incident
One fall evening, Rankin went to the gas
station to get snacks. Shortly after leaving her
apartment complex, Rankin’s car broke down. Her car
was known for having “electrical problems with the
wiring.” Rankin always kept a pink paring knife in her
car to open the hood because her car had been
damaged in an accident. This occasion was no
different.
Rankin called her 13-year-old daughter, M.R.
She also called her boyfriend, Steven Willis, “a whole
bunch of times” to help her jump start the disabled car
because he was driving her Oldsmobile Cutlass. Willis
eventually arrived, parked the Cutlass next to her car,
and pushed her car into a washateria parking lot.
While Willis retrieved the jumper cables from the
trunk, Rankin took the knife from her knife kit to
unlatch the hood. Meanwhile, M.R. went outside to
check on her mother and saw Rankin and Willis in the
washateria parking lot across the street. M.R. heard
Willis “yelling” and saw him behaving “very

3a
aggressively.” She noticed that Willis’s “nostrils had
flared up” and that his “face turned very bright red”
with “rage.”
According to Rankin, Willis “had an attitude”
and acted “bother[ed]” when he first arrived to help
her. As she was trying to unlatch the hood, Rankin
repeatedly asked Willis where he had been. He
responded, “Shut the fuck up.” Next, Rankin asked
him why he had not answered her calls sooner. She
continued to question him. Eventually, Rankin no
longer wanted Willis to help her because he grew
increasingly “frustrated.” She told him, “You know
what? Don’t worry about it. I’ll figure it out myself.
But you will not take my car.”
At that moment, M.R. saw Willis grab and
lunge at Rankin. M.R. then “turned around and ran to
get” a bat from their apartment. Meanwhile, Willis
exclaimed, “Bitch, I’ll kill you!” He grabbed Rankin’s
right wrist with his left hand, squeezed it, and began
to choke her. He choked her for at least 30 seconds.
Rankin begged Willis to release her neck and “cr[ied]
out to God” because she started to “lose [her] breath”
and felt like she “was about to die.” Rankin struggled
to pry her wrist from Willis’s hand. Rankin still had
the knife in her hand. When she broke free from his
grasp, Rankin “called out for help from God,” “took the
knife,” and “poked him once to get him off of” her. In
describing what happened after she “poked” him with
the knife, she explained:
He lets go of me, he walks away, he gets
back into the Cutlass, he starts the

4a
Cutlass, he reverses the Cutlass, he
backs out of the position the car was in,
to drive off. . . . When he gets to the
intersection to exit the parking lot, he
doesn’t turn. The car stops. He puts the
car in park, he gets out of the car, he
walks a little bit behind the car, and he
drops.
As Willis walked away, Rankin sat in her car
and cried with the door open. When she noticed Willis
fall to the ground, Rankin ran over to help him.
Because Willis was unconscious and unresponsive,
Rankin picked him up, “put him in the passenger seat
of the Cutlass,” and called 911. While on the phone
with the 911 operator, Rankin decided that she could
get to the hospital quicker than an ambulance. She
“took off ... doing 95 [mph] down Fondren the whole
way.” By the time M.R. returned with the bat, she saw
her mother’s car there, but the Cutlass, her mother,
and Willis were gone.
The Emergency Room Visit
Rankin and Willis arrived at the Southwest
Hermann Memorial Hospital “six minutes” later.
Willis had a stab wound to the chest and was
unresponsive. The emergency room physician and
other hospital workers carried him onto a stretcher
and tried to resuscitate him by performing CPR.
A police officer sitting at the front desk of the
hospital asked Rankin, “Who did this?” She
responded, “I did.” Houston Police Department

5a
Detective A. Hernandez came to the hospital to
investigate the cause of Willis’s injuries. Police took
Rankin’s cell phone, identification, and other items
from her. There is a dispute about whether officers
immediately handcuffed Rankin.
Detective
Hernandez met with Rankin. She did not advise
Rankin of her constitutional rights under Miranda v.
Arizona before questioning her about the incident.
Rankin explained that she called Willis to
assist her with her car troubles. She also told
Detective Hernandez that an argument ensued. She
did not, however, tell Detective Hernandez that Willis
had choked her because she was “afraid that once he
got out of the hospital, if they were to arrest him, he
was going to come hurt [her].” After the argument,
Rankin realized that the knife in her right hand had
accidentally penetrated Willis’s chest when he had
bent over. She also told Detective Hernandez that
Willis “walked away” towards the Cutlass, sat in the
car and then got out again, “took off his shirt,”
“grabbed his chest,” and “fell to the ground.” That is
when Rankin first called the police and then rushed
Willis to the hospital.
Rankin’s “story seemed incomplete” to
Detective Hernandez. She called the District
Attorney’s Office to “discuss the case,” but they
declined to charge her. Afterwards, Detective
Hernandez “contacted the Homicide Division and
requested investigators come to the hospital.” When
the other officers arrived, Rankin signed consent
forms authorizing officers to search and seize her car

6a
and the Cutlass. Detective Hernandez handcuffed
Rankin under Houston Police Department policy
requiring officers to handcuff all persons transported
for security. She drove Rankin to the Homicide
Division for further questioning.
The Investigation
Officer R. Lujan met with Rankin. He told her
that she was there voluntarily, she was not in any
trouble, and he only wanted to get information about
the incident. He did not read her Miranda warnings
before taking her statement. Rankin repeated the
version of events that she had given Detective
Hernandez earlier, but she omitted the details about
the argument and physical altercation. As before,
Rankin never told Officer Lujan that Willis tried to
choke or otherwise hurt her. Rankin did not appear
injured. Officers returned her purse, identification,
and cell phone to her and took her home after she gave
her statement. Willis later died from his injuries.
The Suppression Hearing and Jury Trial
The State indicted Rankin for murder. Before
trial, Rankin moved to suppress the statements she
made to the officers. Rankin, Detective Hernandez,
Officer Lujan, and Officer B. Evans testified at the
suppression hearing. At the end of the hearing, the
trial court denied Rankin’s motion to suppress:
At this time, I’ll find that the statement,
although it did not comply with Miranda, that she was
not under arrest or part of custodial interrogation and
that it was voluntarily made. I find the statements by

7a
Ms. Rankin made about her time in the video room are
entirely inconsistent, which is what is on that video
room, specifically about asking to call her daughter,
specifically about asking to use the bathroom. The fact
that she was transported in handcuffs alone does not
rise to custodial interrogation.
At trial, during defense counsel’s opening
statement,
a
spectator yelled,
“That’s all
lies!” Defense counsel immediately moved for a
mistrial. Outside the presence of the jury, the trial
court reprimanded the spectator and ordered him to
leave the courtroom. After dismissing the spectator,
the trial court denied the motion for mistrial.
Defense counsel then asked the trial court to
instruct the jury to disregard the outburst, and the
trial court gave the following instruction to the jury:
Ladies and gentlemen, sorry for the
interruption. We’re not sure—the person is not a
witness and will not be returning to the courtroom. He
is ordered to be—he will not be back in the courtroom
during the proceedings of this case. The only thing
that you may consider as evidence in this case is
evidence that’s introduced to you and evidence
received from the witness stand. I’m going to instruct
you to disregard the statements from the audience. All
right?
The jury convicted Rankin of murder, rejected
her claim of sudden passion, and assessed
punishment at 15 years’ confinement in the

8a
Institutional Division of the Texas Department of
Criminal Justice. This appeal followed.
Motion to Suppress
In her first issue, Rankin contends that the
trial court erred by denying her motion to suppress
her statements to police at the hospital and at the
police station. She argues that admission of the
inculpatory statements was error because she was in
custody when she made the statements but the
officers never provided her with statutory warnings
under Article 15.17 or Article 38.22 of the Texas Code
of Criminal Procedure. See TEX. CODE CRIM. PROC.
arts.15.17, 38.22. The State maintains that the trial
court did not err because Rankin was not in custody
when she made the statements. The State does not
dispute that officers did not read Rankin the statutory
warnings.
A. Standard of review
We review a trial court’s decision to deny a
motion to suppress for an abuse of discretion.
Martinez v. State, 348 S.W.3d 919, 922 (Tex. Crim.
App. 2011). “We view the record in the light most
favorable to the trial court’s conclusion and reverse
the judgment only if it is outside the zone of
reasonable disagreement.” State v. Dixon, 206 S.W.3d.
587, 590 (Tex. Crim. App. 2006). At a hearing on a
motion to suppress, the trial court is the sole judge of
the credibility of the witnesses and the “weight to be
given their testimony.” Romero v. State, 800 S.W.2d
539, 543 (Tex. Crim. App. 1990) (en banc). A trial

9a
court’s determination about whether a suspect is in
custody presents a mixed question of law and fact.
Herrera v. State, 241 S.W.3d 520, 526 (Tex. Crim. App.
2007). We therefore “afford almost total deference to a
trial judge’s ‘custody’ determination when the
questions of historical fact turn on credibility and
demeanor.” Id. at 526–27. “Conversely, when the
questions of historical fact do not turn on credibility
and demeanor, we will review a trial judge’s ‘custody’
determination de novo.” Id. at 527.
B. Applicable law
Police must give warnings required by Miranda
and the Texas Code of Criminal Procedure if a suspect
is interrogated in custody. Estrada v. State, 313
S.W.3d 274, 293 (Tex. Crim. App. 2010). The
prosecution may not use statements, whether
exculpatory or inculpatory, stemming from custodial
interrogation of the defendant unless it shows the use
of procedural safeguards effective to secure the
privilege against self-incrimination. Miranda, 384
U.S. at 444, 86 S.Ct. 1602. Additionally, Article
15.17 mandates an officer to provide the accused of
warnings, including her right to retain counsel, right
to remain silent, and right to terminate the interview
at any time. See TEX. CODE CRIM. PROC. art.
15.17(a). Article 38.22 precludes the use of statements
that result from custodial interrogation without
compliance with its procedural safeguards. See id. art.
38.22, § 2(a) (no statement made as a result of a
custodial interrogation will be admissible against the
accused in a criminal proceeding unless, among other

10a
things, officers administer statutory warnings to the
accused before the accused gives a statement).
“The defendant bears the initial burden of
proving that a statement was the product of ‘custodial
interrogation.’” Herrera, 241 S.W.3d at 526.
“Custodial interrogation” means questioning initiated
by police officers after a person has been taken into
custody or otherwise deprived of his freedom of action
in any significant way. Miranda, 384 U.S. at 444, 86
S.Ct. 1602; Dowthitt v. State, 931 S.W.2d 244, 254
(Tex. Crim. App. 1996) (citing Stansbury v. California,
511 U.S. 318, 322–25, 114 S.Ct. 1526, 128 L.Ed.2d 293
(1994) (per curiam)).
Four general situations suggest that a person
may be in custody: (1) when the suspect is physically
deprived of her freedom in any significant way;
(2) when a law enforcement official tells the suspect
that she cannot leave; (3) when law enforcement
officials create a situation that would lead a
reasonable person to believe there has been a
significant restriction upon her freedom of movement;
and (4) when there is probable cause to arrest and law
enforcement officers do not tell the suspect that she is
free to leave. Shiflet v. State, 732 S.W.2d 622, 629
(Tex. Crim. App. 1985) (en banc). For the first three
situations, the “restriction upon freedom of movement
must amount to the degree associated with an arrest
as opposed to an investigative detention.” Dowthitt,
931 S.W.2d at 255. For the fourth situation, the
officers’ knowledge of probable cause must be
“manifested to the suspect.” Id. This manifestation

11a
could occur if some “information substantiating
probable cause is related by the officers to the suspect
or by the suspect to the officers.” Id. And because
probable cause is a “factor” in other cases, the fourth
situation does not automatically establish custody. Id.
Custody is established if the manifestation of probable
cause, combined with other circumstances, would lead
a reasonable person to believe that she is under
restraint to the degree associated with an arrest. Id.
C. Custodial Interrogation
First, Rankin argues that she was in custody
because she made a “pivotal admission of guilt.” She
asserts that she was “handcuffed as soon as she
admitted responsibility for [Willis’s] condition,” placed
in a room for “several hours,” and “told she could not
leave the room until the police arrived.” She also
asserts that she was not allowed to go to the restroom,
was not free to leave, and was not allowed to call M.R.,
despite asking for those things. In response, the State
argues that “the trial court questioned the veracity of
[Rankin’s] testimony and found her testimony to be
incredible.” For example, the State points out that the
video of the interview does not show that the officers
told Rankin she could not leave. Indeed, the video
shows that she had spoken with her daughter twice
that night despite Rankin’s testifying that she was not
allowed to call her daughter.
Rankin relies on Ruth v. State, 645 S.W.2d 432
(Tex. Crim. App. 1979). In Ruth, the Texas Court of
Criminal Appeals held that an interrogation became
custodial because the police officer had probable cause

12a
to arrest him, considering that the suspect admitted
to shooting the victim, explained his motive, and
reenacted the offense. Id. at 435. The Court
considered the police officer’s subjective intent, the
suspect’s subjective belief, the investigation’s focus,
and whether there was probable cause for arrest. Id.
at 436. The police officer did not give Miranda
warnings and “inten[ded] to restrain the appellant
until he made a statement.” Id. This intention
prompted the suspect’s “subjective belief that he was
required to answer [the questions]” and there was
probable cause to arrest the suspect. Id. Based on the
totality of these circumstances, the Court held that
the suspect was in custody following the statement.
Id.
Rankin’s reliance on Ruth is misplaced.
Witnesses testified that Rankin was not handcuffed or
arrested. During the suppression hearing, Detective
Hernandez testified that Rankin was not in handcuffs
or under arrest when she arrived at the hospital.
Officer Evans also testified that Rankin was not in
handcuffs and not under arrest. Unlike the police
officer in Ruth, the police officers here testified that
they questioned Rankin to “gather more information”
about the cause of Willis’s injuries and tried to
determine “how the event unfolded.” Nothing in the
record suggests that the officers intended to restrain
Rankin until she made a statement. In fact, Detective
Hernandez and Officer Evans both testified that
Rankin was free to leave. Nor does the record show
that the officers knew that the incident was more than
a mere accident. Rankin testified that she

13a
intentionally omitted the details relating to the
choking from her statement. She was “afraid that once
[Willis] got out of the hospital, if they were to arrest
him, he was going to come hurt [her].”
The facts here are similar to those in Estrada.
In Estrada, an officer questioned the defendant about
his involvement in murders for five hours without first
Mirandizing him. Estrada, 313 S.W.3d at 290, 292.
The defendant incriminated himself. Id. at 290. The
officer accused the defendant of lying and told him
that he was free to leave, and the defendant
acknowledged that he was there voluntarily and did
not have to listen to the officer’s accusations. Id. At
that point, the defendant told the officer that he did
not want to continue talking and that he wanted the
police to give him a ride home. Id. The officer stopped
questioning him and took him home. Id.
The Court of Criminal Appeals held that the
defendant was not in custody for Miranda and Article
38.22 purposes. Id. at 295. The court reasoned that no
reasonable person would believe that he could not
leave. Id. The court determined the defendant could
have “simply walked out” or “asked the police for a
ride home,” which he did. Id.
Like the defendant in Estrada, Rankin could
have left the hospital or asked the police for a ride
home, but she did not. The evidence suggests that the
officers’ encounter with Rankin was a consensual one.
During a consensual encounter, an officer may initiate
contact with a person without having an objective
level of suspicion, question the person, and ask for

14a
identification as long as the officer does “not convey a
message that compliance with their requests is
required.” Florida v. Bostick, 501 U.S. 429, 434–35,
111 S.Ct. 2382, 115 L.Ed.2d 389 (1991). The officers
here did just that. They contacted Rankin in person,
asked her questions about the cause of Willis’s stab
wound, and took her identification. Nothing in the
record shows that a reasonable person under these
same circumstances would believe that she could not
leave. For these reasons, Rankin has not proven that
her “pivotal admission” was a product of custodial
interrogation.
Second, Rankin argues that police physically
prevented her from leaving the hospital because her
“freedom of movement was restricted to a degree
associated with [an] arrest.” Rankin contends that,
along with being handcuffed at the hospital, she was
handcuffed while being transported to the Homicide
Division and to her home, and this procedure was
“inherently restrictive” after “admitting to a crime.”
Detective Hernandez explained that Houston Police
Department’s transport policy requires passengers to
be handcuffed solely for security purposes.
When asked about her reason for transporting
Rankin in handcuffs, Detective Hernandez explained:
A lot of people tend to be scared when handcuffs
go on. So, I try to always tell people, you know, as
easily as they go on is as easily as they come off. It
doesn’t mean you’re under arrest, it just means I have
to handcuff you.

15a
The record reflects that Detective Hernandez
did not handcuff Rankin for longer than was
necessary to transport her from the hospital to the
Homicide Division and from the Homicide Division to
her home. She uncuffed Rankin as soon as she arrived
at the destinations. Given the totality of these
circumstances, the fact that she was transported in
handcuffs alone does not constitute probable cause.
See State v. Sheppard, 271 S.W.3d 281, 291 (Tex.
Crim. App. 2008) (authorizing handcuffing suspect for
reasonable amount of time to “safeguard the officers
and assure the suspect’s presence during a period of
investigation”).
Although we do not disagree with Rankin that
the transportation policy must comport with the Fifth
Amendment and that a consensual encounter may
escalate to custodial interrogation, that did not
happen here. See Dowthitt, 931 S.W.2d at 255.
Moreover, “[s]tationhouse questioning does not, in and
of itself, constitute custody.” Id. (citing California v.
Beheler, 463 U.S. 1121, 1124–25, 103 S.Ct. 3517, 77
L.Ed.2d 1275 (1983)). Despite Rankin’s contention
that she was handcuffed and prevented from leaving,
it is up to the trial court to resolve any conflicts in the
evidence. State v. Ross, 32 S.W.3d 853, 854–55 (Tex.
Crim. App. 2000) (en banc). It was within the trial
court’s discretion to believe or disbelieve Rankin’s
testimony. Id. at 855. It was also within the trial
court’s discretion to believe or disbelieve Detective
Hernandez and Officer Evans’s testimony. Id.
Because the trial court noted several inconsistencies
in Rankin’s testimony and because we afford almost

16a
total deference to a trial court’s fact-finding about
whether she was in custody for Fifth Amendment
purposes, we hold that Rankin did not establish that
her statements were the product of custodial
interrogation. See Herrera, 241 S.W.3d at 526.
Rankin also argues that she was physically
prevented from leaving the hospital because her cell
phone, identification, and purse were taken from her
and that she could not leave because her car was being
searched by law enforcement. She does not contend
that officers subjected her to a coercive environment.
As the United States Supreme Court noted, “Even
when officers have no basis for suspecting a particular
individual, they may ... ask to examine the
individual’s identification and ... request consent to
search” her belongings, absent any threats or
coercion. Bostick, 501 U.S. at 435, 111 S.Ct. 2382. The
record reflects that Rankin voluntarily turned over
her identification and other belongings and that she
signed two consent forms authorizing officers to
search the Cutlass as well as her other car. The
consent forms that Rankin acknowledged reading and
signing also informed her about her right to refuse.
The showing that a suspect has been warned
that she does not have to consent to the search and
has a right to refuse is of evidentiary value in
determining whether a suspect validly consented. See
Allridge v. State, 850 S.W.2d 471, 493 (Tex. Crim.
App. 1991) (en banc). Thus, Rankin’s encounter with
the officers was consensual because she could have
refused consent to search her vehicle and left, but she

17a
did not. See, e.g., Goines v. State, 888 S.W.2d 574, 578
(Tex. App.—Houston [1st Dist.] 1994, pet. ref’d)
(detention was temporary, consensual encounter
where officers took car keys from defendant and
defendant signed consent form informing him of right
to refuse consent to search his car). Rankin therefore
has not established that officers physically prevented
her from leaving.
Third, Rankin contends that her interrogation
was custodial because the officers had probable cause
to arrest her. According to Rankin, the officers had
probable cause to arrest her because she admitted to
causing Willis’s injuries and because Detective
Hernandez stated her “story seemed incomplete,”
called the District Attorney’s Office, and enlisted the
help of the Homicide Division.
The United States Supreme Court held that it
is the “compulsive aspect of the custodial
interrogation, and not the strength or content of the
government’s suspicions at the time the questioning
[is] conducted” that determines custody for Miranda
purposes. Stansbury, 511 U.S. at 323, 114 S.Ct. 1526.
And, in this case, no compulsive aspect existed.
Detective Hernandez testified that there was not
“sufficient probable cause” to arrest Rankin. Even if
Detective Hernandez suspected that Rankin had
something to do with causing Willis’s injuries, the
District Attorney confirmed the lack of probable cause
and rejected the charges against Rankin. Thus, there
was no manifestation of probable cause that would
have led Rankin to believe that she was under arrest.

18a
Cf. Dowthitt, 931 S.W.2d at 255. We therefore
conclude that the trial court did not err by denying
Rankin’s motion to suppress. The trial court’s decision
to deny her motion to suppress was within the zone of
reasonable disagreement. See Martinez, 348 S.W.3d at
922. We overrule Rankin’s first issue.
Sufficiency of Evidence
A. Self-Defense
In her second issue, Rankin challenges the legal
and factual sufficiency of the evidence to support the
jury’s rejection of her self-defense claim because,
according to Rankin, her use of force was reasonable
and immediately necessary. Rankin argues that she
stabbed Willis because she believed that he would
choke her to death. She claims that the evidence
supports a finding that she was a victim of domestic
violence and acted in self-defense. Because Rankin
raised self-defense, the State had to two tasks to
convict her for murder: (1) prove the elements of
murder beyond a reasonable doubt and (2) persuade
the jury that Rankin did not kill Willis in self-defense.
See Cleveland v. State, 177 S.W.3d 374, 379 (Tex.
App.—Houston [1st Dist.] 2005, pet. ref’d) (en banc).
Rankin contends that the evidence is legally and
factually insufficient to support her conviction for
murder because she acted in self-defense.
1. Standard of review
Because the State bears the burden of
persuasion to negate self-defense by proving its case
beyond a reasonable doubt, we review both legal and

19a
factual sufficiency challenges to the jury’s rejection of
self-defense under the Jackson v. Virginia standard.
Brooks v. State, 323 S.W.3d 893, 895 (Tex. Crim. App.
2010) (citing Jackson v. Virginia, 443 U.S. 307, 99
S.Ct. 2781, 61 L.Ed.2d 560 (1979)). Under that
standard, “the relevant question is whether, after
viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found
the essential elements of the crime beyond a
reasonable doubt.” See Jackson, 443 U.S. at 319, 99
S.Ct. 2781; Laster v. State, 275 S.W.3d 512, 517 (Tex.
Crim. App. 2009). Viewed in the light most favorable
to the verdict, the evidence is insufficient under this
standard when either: (1) the record contains no
evidence, or merely a “modicum” of evidence,
probative of an element of the offense; or (2) the
evidence conclusively establishes a reasonable doubt.
See Jackson, 443 U.S. at 314, 319 n.11, 320, 99 S.Ct.
2781; Laster, 275 S.W.3d at 518. “[We] may not reevaluate the weight and credibility of the record
evidence and thereby substitute its own judgment for
that of the fact finder.” Williams v. State, 235 S.W.3d
742, 750 (Tex. Crim. App. 2007). We defer to the jury
“to fairly resolve conflicts in testimony, to weigh the
evidence, and to draw reasonable inferences from
basic facts to ultimate facts.” Hooper v. State, 214
S.W.3d 9, 13 (Tex. Crim. App. 2007) (citing Jackson,
443 U.S. at 318–19, 99 S.Ct. 2781). We presume that
the factfinder resolved any conflicting inferences in
favor of the verdict, and we defer to that resolution.
Jackson, 443 U.S. at 326, 99 S.Ct. 2781; Clayton v.
State, 235 S.W.3d 772, 778 (Tex. Crim. App. 2007).

20a
2. Applicable law
A person commits murder if she “intentionally
or knowingly causes the death of an individual” or
“intends to cause serious bodily injury and commits an
act clearly dangerous to human life that causes the
death of an individual.” See TEX. PENAL CODE
§ 19.02(b)(1)–(2). The Penal Code also provides that “a
person is justified in using force against another when
and to the degree the actor reasonably believes the
force is immediately necessary to protect the actor
against the other’s use or attempted use of unlawful
force.” Id. § 9.31(a). Deadly force in self-defense is
justified when a person reasonably believes the force
is immediately necessary to protect the actor against
the other’s use or attempted use of unlawful deadly
force or to prevent the other’s imminent commission
of murder, among other crimes. Id. § 9.32(a).
The defendant bears the of producing some
evidence to support a claim of self-defense. Braughton
v. State, 569 S.W.3d 592, 608 (Tex. Crim. App. 2018).
Once the defendant produces some evidence raising
self-defense, the State bears the burden of persuasion
to show beyond a reasonable doubt that the
defendant’s actions were not justified. Zuliani v.
State, 97 S.W.3d 589, 594 (Tex. Crim. App. 2003);
Saxton v. State, 804 S.W.2d 910, 913 (Tex. Crim. App.
1991) (en banc). To meet its burden of persuasion, the
State need not produce additional evidence but must
prove its case beyond a reasonable doubt. Saxton, 804
S.W.2d at 913. The jury is the sole judge of the
credibility of defensive evidence, and it is free to

21a
accept it or reject it. See Braughton, 569 S.W.3d at 609
(citing Saxton, 804 S.W.2d at 914).
If the jury finds the defendant guilty, it has
made an implicit finding against any defensive theory
raised by the defendant. Saxton, 804 S.W.2d at 914;
see also Zuliani, 97 S.W.3d at 594. “[A] defensive
instruction is only appropriate when the defendant’s
defensive evidence essentially admits to every
element of the offense including the culpable mental
state, but interposes [a] justification to excuse the
otherwise criminal conduct.” Shaw v. State, 243
S.W.3d 647, 659 (Tex. Crim. App. 2007).
3. Denial of Self-Defense
Rankin testified that she acted in self-defense
because she was a victim of domestic violence. Willis
had a history of getting “upset” and starting
arguments that turned into physical altercations.
Although she had not seen any of the altercations,
M.R. testified about witnessing Rankin’s injuries she
allegedly sustained from Willis before the stabbing
incident. Photographs of Rankin’s black eye and
bruises were admitted into evidence. Rankin did not
report this abuse because she was “scared” and “didn’t
want [Willis] to go to jail.” Despite the physical abuse,
Rankin stayed in the relationship with Willis because
she “loved him” and “saw the good in him.” Dr. V.
Sloan, a clinical psychologist, testified that she had
diagnosed Rankin with “post-traumatic stress
disorder” because Rankin had a “long history as an
adult of being in relationships with men who were

22a
very violent, who were very abusive to her, who would
swear and refer to her by obscenities.”
Rankin also claimed that she acted in selfdefense when Willis assaulted her on the day of the
stabbing incident. After Rankin and Willis began
arguing, M.R. saw Willis grab and lunge at Rankin.
M.R. ran to their apartment to retrieve a bat to help
her mother. With no witnesses in sight, Rankin
testified that Willis shouted expletives at Rankin,
grabbed her hand, and choked her. She felt like she
“was about to die.” Rankin struggled to loosen Willis’s
grip from her wrist. By her own admission, Rankin
could free herself from Willis’s grasp before using the
knife she kept to pry the hood of her car open to “poke”
him in the chest, even though she could have easily
retreated to her apartment across the street. Willis
then walked away, got in the car, and tried to drive
away. Next, Willis parked the car, got out, and
collapsed to the ground. Rankin realized that Willis
was unconscious and unresponsive, called 911, and
quickly rushed him to the hospital.
From Rankin’s own testimony, a rational jury
could have therefore concluded that deadly force was
not immediately necessary for Rankin to defend
herself from an unarmed man. Mitchell v. State, 590
S.W.3d 597, 604–05 (Tex. App.—Houston [1st Dist.]
2019, no pet.) (defendant not entitled to use deadly
force when unarmed aggressor let defendant go before
defendant picked up a gun and fired at victim);
Sanchez v. State, 418 S.W.3d 302, 310 (Tex. App.—
Fort Worth 2013, pet. ref’d) (defendant “acted out of

23a
anger, not protective instinct, in pursuing the
unarmed [complainant]”); Wilson v. State, No. 01-1700788-CR, 2019 WL 346892, at *3 (Tex. App.—
Houston [1st Dist.] Jan. 29, 2019, pet. ref’d) (mem. op.,
not designated for publication) (no evidence of selfdefense when defendant shot man who stepped back
and threw his hands up after wrestling with
defendant).
The State presented evidence supporting the
jury’s rejection of Rankin’s self-defense claim. Rankin
never told officers that Willis was abusive, that he
choked her, or that she stabbed him in self-defense.
Officers observed no apparent injuries around her
neck or wrist. Rankin ultimately “claimed to have no
knowledge that [the stabbing] happened at the time it
happened, had no intent, and claimed it was an
accident,” but changed her explanation at trial. To
prove a claim of self-defense, the defendant must
admit to having the intent to kill or cause serious
bodily injury to the victim to save herself. See Shaw,
243 S.W.3d at 659. Rankin did not admit she intended
to kill or seriously harm Willis. Rather, she said she
“poked” Willis to get him off of her.
A rational jury also could have reasonably
concluded that Rankin’s failure during questioning to
disclose their abusive relationship or that she “poked”
him in the chest conflicted with her claim of selfdefense at trial. The jury could have reasonably found
Rankin incredible because she did not claim selfdefense until she testified at trial. And, as a matter of
law, Rankin had no right to a jury finding that she

24a
killed Willis in self-defense because she did not admit
to having the culpable mental state for murder. See
Shaw, 243 S.W.3d at 659.
After reviewing all the evidence in the light
most favorable to the verdict for legal sufficiency
analysis, we conclude that a rational jury could have
reasonably found against Rankin on self-defense
beyond a reasonable doubt. See Jackson, 443 U.S. at
318–19, 99 S.Ct. 2781. We overrule Rankin’s second
issue.
B. Sudden Passion
In her third issue, Rankin contends the
evidence is legally and factually insufficient to
support the jury’s finding at punishment that she did
not kill Willis under the immediate influence of
sudden passion.
1. Applicable law
At the punishment stage of a murder trial, a
defendant may reduce a murder charge from a firstdegree felony to a second-degree felony by proving by
a preponderance of the evidence that she “caused the
death under the immediate influence of sudden
passion arising from an adequate cause.” See TEX.
PENAL CODE § 19.02(d); see also Hernandez v. State,
127 S.W.3d 206, 211–12 (Tex. App.—Houston [1st
Dist.] 2003, pet. ref’d). “ ‘Sudden passion’ means
passion directly caused by and arising out of
provocation by the individual killed or another acting
with the person killed which passion arises at the time
of the offense and is not solely the result of former

25a
provocation.” TEX. PENAL CODE § 19.02(a)(2).
“ ‘Adequate cause’ means cause that would commonly
produce a degree of anger, rage, resentment, or terror
in a person of ordinary temper, sufficient to render the
mind incapable of cool reflection.” Id. § 19.02(a)(1); cf.
Moncivais, 425 S.W.3d at 407 (ordinary anger or fear
alone does not raise an issue of sudden passion arising
from adequate cause).
2. Legal sufficiency
a. Standard of review
In Brooks, the Court of Criminal Appeals held
that the Jackson v. Virginia standard is the only
standard that a reviewing court should apply in
determining whether the evidence can support each
element of a criminal offense that the State must
prove beyond a reasonable doubt. Brooks, 323 S.W.3d
at 895 (citing Jackson, 443 U.S. at 319, 99 S.Ct. 2781).
We review issues on which the defendant had the
burden of proof by a preponderance of the evidence,
like sudden passion, under a different standard and
apply the legal sufficiency standard used in civil cases.
See Smith v. State, 355 S.W.3d 138, 147 (Tex. App.—
Houston [1st Dist.] 2011, pet. ref’d).
We apply a two-step analysis under the civil
legal sufficiency standard. Moncivais v. State, 425
S.W.3d 403, 407 (Tex. App.—Houston [1st Dist.] 2011,
pet. ref'd). First, we review the record for any evidence
that supports the jury’s negative finding while
ignoring all evidence to the contrary. Id. Second, if no
evidence supports the negative finding, then we

26a
examine the entire record to determine whether the
evidence establishes the affirmative defense. Id. We
must defer to the fact finder’s determination of the
weight and credibility to give the testimony and the
evidence at trial. See Cleveland, 177 S.W.3d at 388–
89.
b. Legally sufficient evidence of no sudden
passion finding
In examining the record under the first prong
of the civil legal sufficiency standard, we conclude that
some evidence supports the jury’s negative finding on
sudden passion. The evidence at trial does not show
that the Rankin acted under the immediate influence
of sudden passion arising from an adequate cause. At
most, Rankin said that she was “terrified,” “scared,”
and “horrified” during their altercation based on their
history of domestic violence. “For a claim of fear to rise
to the level of sudden passion, the defendant’s mind
must be rendered incapable of cool reflection.”
Gonzales v. State, 717 S.W.2d 355, 357 (Tex. Crim.
App. 1986) (en banc).
The record does not show that Rankin was
“emotionally aroused” to the point that she would be
incapable of a cool reflection period. Id. Instead,
Rankin testified that she maintained that she
remained calm and maintained her composure before,
during, and after the stabbing. For example, Rankin
testified that she defused the argument before she
stabbed Willis when she noticed her questioning
frustrated him. She rejected his help and opted to fix
the car herself. Another example of Rankin’s ability to

27a
pause is that she “call[ed] out for help from God,”
despite losing her breath from Willis’s chokehold.
Rankin testified, “Like—just—something allowed my
wrist to break free. And, when I did, I just took the
knife and I poked him once.” Even Rankin’s mental
state after the stabbing shows that she was capable of
cool reflection. Rankin testified that she sat inside her
car and started crying after Willis walked away. We
therefore conclude that Rankin’s own testimony does
not support a finding that Rankin had acted under the
immediate influence of sudden passion arising from
adequate cause. See Gonzales, 717 S.W.2d at 357–58
(evidence legally sufficient to support jury’s rejection
of sudden passion because appellant “stayed cool and
maintained his composure” throughout confrontation
with victim).
The record satisfies the first prong of civil legal
sufficiency standard of review because evidence exists
that Rankin was not under the immediate influence of
sudden passion when she stabbed Willis. See
Moncivais, 425 S.W.3d at 408; Cleveland, 177 S.W.3d
at 390. Thus, we need not address the second prong of
the civil legal sufficiency standard—whether Rankin
proved sudden passion—because that prong only
applies if no evidence supports the jury’s finding. See
Cleveland, 177 S.W.3d at 389. We hold that the
evidence is legally sufficient to support the jury’s
negative finding of sudden passion. See Smith, 355
S.W.3d at 147.

28a
3. Factual sufficiency
a. Standard of review
In reviewing an issue on which the defendant
has the burden of proof by a preponderance of the
evidence, we apply the factual-sufficiency standard in
Meraz v. State, 785 S.W.2d 146, 154–55 (Tex. Crim.
App. 1990) (en banc). See, e.g., Cleveland, 177 S.W.3d
at 390–91 (applying Meraz standard to review factual
sufficiency of jury’s negative sudden passion finding).
“[T]he Jackson v. Virginia standard advanced in
Brooks applies to a sufficiency review of the elements
of the offense the State must prove beyond a
reasonable doubt, not to the jury’s negative finding of
an issue on which the defendant had the burden of
proof by a preponderance of the evidence.” Moncivais,
425 S.W.3d at 408; see Brooks, 323 S.W.3d at 924 n.
67 (Cochran, J., concurring) (noting that factual
sufficiency standard in Meraz is appropriate for
review of issues like sudden passion on which
defendant has burden of proof by preponderance of
evidence). Under the Meraz standard, we review all of
the evidence in a neutral light to determine whether
the verdict is so against the great weight and
preponderance of the evidence as to be “manifestly
unjust, conscience-shocking, or clearly biased.”
Matlock v. State, 392 S.W.3d 662, 671 (Tex. Crim. App.
2013). “We may not, however, intrude on the fact
finder’s role as the sole judge of the weight and
credibility of the witnesses’ testimony.” Moncivais,
425 S.W.3d at 408.

29a
b. Factually sufficient evidence of no sudden
passion finding
Rankin relies largely on her own testimony to
argue that the jury’s finding of no sudden passion was
against the great weight and preponderance of the
evidence. She essentially makes a self-defense
argument. Rankin testified that she always kept a
knife in her car to open its damaged hood because she
often experienced electrical problems. She took out
the same knife on the day of the incident to open her
hood. She also testified that the argument escalated
into a physical altercation—just like their past
disputes—and Willis choked her before she “poked”
him with the knife after feeling like she would die
from strangulation. Rather than pursue Willis when
he walked away, Rankin sat in her car and cried until
she noticed Willis collapse to the ground. She called
911 and drove about 95 miles per hour to take Willis
to the hospital for his stab wound.
The jury also heard other evidence from which
it could have found sudden passion. M.R. testified that
she peered outside the apartment because her mom
was taking too long to return home. M.R. saw Willis
drive into the parking lot across the street and park
next to Rankin’s car. M.R. also testified that she heard
Willis yelling, saw him behaving aggressively, and
noticed that “his nostrils had flared up” and that his
“face turned very bright red” with “rage.” Finally,
M.R. testified that she saw Willis grab and lunge at
Rankin, causing her to run back into the house to get
a bat to defend her mother.

30a
Several witnesses testified that Rankin omitted
the details about the argument and physical
altercation when she described to officers how she
stabbed Willis. The jury could have reasonably
believed Detective Hernandez and Officer Lujan’s
testimony that they did not see any injuries on
Rankin, despite Willis standing six feet tall and
weighing around 215 pounds when he had allegedly
choked her. In other words, a violent attack by a large
man would have left bruises, scratches, or other
injuries so obvious that any ordinary person, let alone
trained officers, would have inquired more about the
cause.
As the sole judge of the weight and credibility
of a witness’s testimony, the jury had a right to believe
the officers’ testimony. And the jury had a right to
disbelieve Rankin and M.R.’s testimony. See
Hernandez, 127 S.W.3d at 214; Moncivais, 425 S.W.3d
at 409; Trevino v. State, 157 S.W.3d 818, 822 (Tex.
App.—Fort Worth 2005, no pet.) (“The jury was free to
make its own determination of appellant’s credibility
and reject appellant’s version of events if it did not
believe he was telling the truth”).
This is where the dissent goes wrong. A finding
of sudden passion here depended on the jury accepting
Rankin and M.R.’s version of events. See, e.g., Smith
v. State, 355 S.W.3d 138, 149 (Tex. App. – Houston
[1st Dist.] 2011, pet. ref’d). They did not.
The jury was free to doubt the defense’s
testimony as a matter of witness credibility, as a
matter of lack of supporting physical evidence, or

31a
because Rankin changed her story. See id.;
Hernandez, 127 S.W.3d at 214. To hold otherwise is to
substitute our judgment for that of the jury. Instead,
without a contradictory showing from the record, we
defer to the jury’s determinations about the weight
and credibility of the evidence. Johnson v. State, 23
S.W.3d 1, 8 (Tex. Crim. App. 2000) (en banc).
Viewing all of the evidence in a neutral light,
we cannot say that the jury’s finding of no sudden
passion is so weak as to be manifestly unjust or
against the great weight and preponderance of the
evidence. See Hernandez, 127 S.W.3d at 213. We
overrule Rankin’s third issue.
Spectator Outburst
In her fourth issue, Rankin contends that the
trial court abused its discretion when it refused to
grant a mistrial after a spectator yelled “That’s all
lies!” during defense counsel’s opening statements.
She acknowledges that the trial court promptly
instructed the jury to disregard, but she argues that
there was “no adequate remedy for tainting the minds
of the jury.” The State responded that Rankin failed
to show a reasonable probability that the words
interfered with the jury’s verdict.
A. Standard of review and applicable law
We review a trial court’s denial of a mistrial for
an abuse of discretion, and we must uphold a judge’s
decision denying a mistrial if it was in the zone of
reasonable disagreement. Archie v. State, 340 S.W.3d
734, 738–39 (Tex. Crim. App. 2011); see Griffin v.

32a
State, 571 S.W.3d 404, 416 (Tex. App.—Houston [1st
Dist.] 2019, pet. ref’d). “A mistrial is required when
the question is ‘clearly calculated to inflame the minds
of the jury and is of such character as to suggest the
impossibility of withdrawing the impression produced
on their minds.’ ” Hernandez v. State, 805 S.W.2d 409,
414
(Tex.
Crim.
App.
1990) (en
banc)
(quoting Gonzales v. State, 685 S.W.2d 47, 49 (Tex.
Crim. App. 1985) (en banc)).
A mistrial occurs only in extreme circumstances
where the prejudice is incurable. Hawkins v. State,
135 S.W.3d 72, 77 (Tex. Crim. App. 2004) (en banc). In
determining whether a mistrial is warranted, we
balance three factors: (1) the severity of the
misconduct, (2) curative measures, and (3) the
certainty of conviction without the misconduct. See id.
at 75. A trial court’s prompt instruction to the jury to
disregard improper testimony will cure error. See
Ovalle v. State, 13 S.W.3d 774, 783 (Tex. Crim. App.
2000) (en banc). We presume the jury followed the
trial court’s instructions to disregard the
outburst. Hernandez, 805 S.W.2d at 414.
B. Denial of Mistrial
The audience member made a single, brief,
unsolicited emotional statement before the trial court
promptly reprimanded him and dismissed him from
the courtroom. Afterwards, the trial court granted
Rankin’s request for a curative instruction and told
the jury:

33a
The only thing that you may consider as
evidence in this case is evidence that’s introduced to
you and evidence received from the witness stand. I’m
going to instruct you to disregard the statements from
the audience.
We presume that the jury followed the trial
court’s instruction to disregard the spectator’s
outburst. See Wesbrook v. State, 29 S.W.3d 103, 116
(Tex. Crim. App. 2000) (en banc). Given the brief,
isolated nature of the statement, the trial court’s
decision that any prejudice flowing from the
statement was curable was within the zone of
reasonable disagreement. We conclude the trial court
did not abuse its discretion in denying Rankin’s
motion for mistrial. See, e.g., Coble v. State, 330
S.W.3d 253, 290–93 (Tex. Crim. App. 2010) (mistrial
unwarranted when trial court instructed the jury to
disregard outbursts of crying and expletives from two
witnesses); Gamboa v. State, 296 S.W.3d 574, 580
(Tex. Crim. App. 2009) (no abuse of discretion when
trial court denied defendant’s request for a mistrial
and instructed jury to disregard an outburst from
victim’s family member). We overrule Rankin’s fourth
issue.
Conclusion
We AFFIRM the trial court’s judgment.

34a
DISSENTING OPINION
KEYES, Justice, dissenting.
I respectfully dissent. This is a classic case of
sudden passion, as appellant, Angel Lee Rankin,
argues in her third issue. I would hold that Rankin
proved her affirmative defense of sudden passion by a
preponderance of the evidence, that a finding
otherwise is against the great weight and
preponderance of the evidence, and that, therefore,
her offense should have been reduced to a seconddegree felony. I would reverse and remand the case for
a new punishment hearing.
Sudden Passion
A. Standard of Review
A person commits murder if she intentionally
or knowingly causes the death of an individual or
intends to cause serious bodily injury and commits an
act clearly dangerous to human life that causes the
death of an individual. See TEX. PENAL CODE
ANN. § 19.02(b)(1)–(2). Typically, murder is a firstdegree felony. Id. § 19.02(c). The Texas Penal Code
provides, however, that
[a]t the punishment stage of a [murder] trial,
the defendant may raise the issue as to whether [s]he
caused the death under the immediate influence of
sudden passion arising from an adequate cause. If the
defendant proves the issue in the affirmative by a
preponderance of the evidence, the offense is a felony
of the second degree.

35a
Id. § 19.02(d); Beltran v. State, 472 S.W.3d 283,
289 (Tex. Crim. App. 2015). “ ‘Sudden passion’ means
passion directly caused by and arising out of
provocation by the individual killed or another acting
with the person killed which passion arises at the time
of the offense and is not solely the result of former
provocation.”
TEX.
PENAL
CODE
ANN. § 19.02(a)(2); Beltran, 472 S.W.3d at 289. “
‘Adequate cause’ means cause that would commonly
produce a degree of anger, rage, resentment, or terror
in a person of ordinary temper, sufficient to render the
mind incapable of cool reflection.” TEX. PENAL
CODE ANN. § 19.02(a)(1); Beltran, 472 S.W.3d at
289.
1. Initial inquiry: propriety of submission of
sudden passion issue to the jury
The standard of review of sudden passion, in
my view, must begin with an initial threshold inquiry
to determine whether the submission of a jury
instruction on sudden passion is supported by the
record. This is important because it is in this context
that the Court of Criminal Appeals has set out the
statutory elements a defendant must prove to be
entitled to the defense. If the issue of sudden passion
is properly submitted, the jury’s finding on the issue
is adverse to sudden passion, and, as here, the
defendant complains on appeal that she proved the
affirmative defense of sudden passion, the reviewing
court must then review the evidence to determine
whether legally or factually sufficient evidence exists
to support the adverse finding on sudden passion. If

36a
the adverse finding on sudden passion is not
supported by legally or factually sufficient evidence,
then the charge against the defendant must be
reduced to a second-degree felony.
To justify the submission of a jury instruction
on sudden passion at the punishment phase, the
record must at least minimally support an inference:
1) that the defendant in fact acted under the
immediate influence of a passion such as terror,
anger, rage, or resentment; 2) that [her] sudden
passion was in fact induced by some provocation by
the deceased or another acting with him, which
provocation would commonly produce such a passion
in a person of ordinary temper; 3) that [s]he
committed the murder before regaining [her] capacity
for cool reflection; and 4) that a causal connection
existed “between the provocation, passion, and
homicide.”
Beltran, 472 S.W.3d at 289–90 (quoting Wooten
v. State, 400 S.W.3d 601, 605 (Tex. Crim. App. 2013));
see TEX. PENAL CODE ANN. § 19.02(a), (d). The
evidence supporting submission of a jury instruction
on the sudden passion defense will satisfy the
defendant’s burden of production even if it is “weak,
impeached, contradicted, or unbelievable,” and it may
arise from any source, during either phase of trial.
Beltran, 472 S.W.3d at 290. The defendant’s
testimony alone is sufficient to raise the issue and
require an instruction in the charge. Id.
In considering whether the defendant was
entitled to a sudden passion charge, “[a]n appellate

37a
court’s duty is to look at the evidence supporting the
charge of sudden passion, not the evidence refuting
it.” Id. at 294; see id. at 293–95 (holding that evidence
supported defendant’s requested jury instruction on
sudden passion where there was evidence that
(1) defendant acted under immediate influence of
terror, testifying that he “panicked” and was
“screaming in panic” when he awoke to find
complainant behind him licking his anus, thus
(2) providing evidence of provocation by complainant
that (3) could have rendered defendant incapable of
cool reflection before acting, where (4) jury could
arguably have deduced, from defendant’s testimony,
that complainant’s sexual assault triggered chain
reaction that resulted in defendant’s crying and
panicked screaming and, ultimately, in complainant’s
stabbing death); see also Trevino v. State, 100 S.W.3d
232, 234–35, 239–41 (Tex. Crim. App. 2003) (holding
that defendant was entitled to jury charge on sudden
passion where detective testified that defendant
informed him (1) he had altercation with complainant
over phone numbers of other women she found in his
wallet; (2) she confronted defendant with gun and
pulled trigger; (3) defendant retrieved his own gun,
and complainant was shot during struggle for guns;
(4) defendant’s sister testified that when defendant
called her after shooting occurred he “was freaking
out” and, when she arrived, she found defendant
“crying and shaking”; and (5) another detective
testified that when he entered defendant’s home,
defendant was kneeling over complainant and said,
“you gotta help her”).

38a
The
question
whether
the
defendant
accidentally killed the victim or killed the victim in
self-defense does not preclude a jury charge on sudden
passion at the punishment phase of trial where both
accident and self-defense are asserted by the
defendant and rejected by the jury at the
guilt/innocence phase if these defenses are supported
by some evidence. Trevino, 100 S.W.3d at 239–40; see
Beltran, 472 S.W.3d at 290 (stating that “sudden
passion and self-defense are not mutually exclusive”
and that jury’s rejection of self-defense theory at guiltinnocence phase does not preclude submission of
sudden passion issue at punishment phase).
When considering whether there is “some”
evidence of sudden passion presented at trial to justify
a sudden passion charge, it is error to look solely to
the evidence against sudden passion. Trevino, 100
S.W.3d at 238–39. Rather, “an appellate court’s duty
is to look at the evidence supporting that charge, not
[at] the evidence refuting it.” Id. The defendant is
entitled to the charge so long as some evidence
supports it, “regardless of whether it conflicted with
other evidence, including some evidence of an
accidental shooting,” or, as here, an accidental
stabbing. See id. at 240. It is also error for a court of
appeals to hold that no charge of sudden passion
should be given because a defendant has denied at
trial the specific intent to kill. Id. at 236–37, 240
(noting that earlier cases holding that denial of intent
to kill precluded charge on sudden passion were
decided on basis of prior law before Legislature
eliminated offense of voluntary manslaughter for

39a
defendant acting “under the immediate influence of
sudden passion arising from an adequate cause” and
replaced it with punishment issue in murder statute).
Once it is ascertained that the charge of sudden
passion was properly submitted to the jury, the
appellate court’s task turns to determining whether
the evidence is legally or factually sufficient to
support reducing the charge from the first-degree
felony of murder to a second-degree felony due to
sudden passion.
2. Legal sufficiency of evidence of sudden passion
As sudden passion is an affirmative defense,
Rankin, as defendant, had the burden of proof and the
burden of persuasion by proving her defense by a
preponderance of the evidence. See TEX. PENAL
CODE ANN. § 2.04(d); Meraz v. State, 785 S.W.2d
146, 150 (Tex. Crim. App. 1990). This is the same
standard of proof as that employed in civil cases.
Matlock v. State, 392 S.W.3d 662, 667 (Tex. Crim. App.
2013). Thus,
[w]hen an appellant asserts that there is
no evidence to support an adverse finding
on which she had the burden of proof [by a
preponderance of the evidence, such as the
sudden passion affirmative defense], we
construe the issue as an assertion that the
contrary was established as a matter of
law. We first search the record for evidence
favorable to the [adverse] finding,
disregarding all contrary evidence unless

40a
a reasonable factfinder could not. If we
find no evidence supporting the finding,
we then determine whether the contrary
was established as a matter of law. Id. at
669.
As the Court of Criminal Appeals has
explained, [t]he final test for legal sufficiency must
always be whether the evidence at trial would enable
reasonable and fair-minded people to reach the
verdict under review. Whether a reviewing court
begins by considering all the evidence or only the
evidence supporting the verdict, legal-sufficiency
review in the proper light must credit favorable
evidence if reasonable jurors could, and disregard
contrary evidence unless reasonable jurors could not.
Id. at 669 n.19 (quoting City of Keller v. Wilson, 168
S.W.3d 802, 827 (Tex. 2005)).
In reviewing the legal sufficiency of the
evidence to support an adverse finding on the
affirmative defense of sudden passion, the appellate
court first looks for more than a mere scintilla of
evidence that supports the jury’s implied finding
adverse to the affirmative defense and disregards all
evidence supporting the defense unless a reasonable
factfinder could not disregard that evidence. See id. at
669; Moncivais v. State, 425 S.W.3d 403, 407 (Tex.
App.—Houston [1st Dist.] 2011, pet. ref’d); Smith v.
State, 355 S.W.3d 138, 148 (Tex. App.—Houston [1st
Dist.] 2011, pet. ref’d). If the record contains no
evidence supporting the adverse finding on the
affirmative defense, then the court examines the

41a
record to determine whether the defendant
established the affirmative defense as a matter of law.
Matlock, 392 S.W.3d at 669–70; Moncivais, 425
S.W.3d at 407–08; Smith, 355 S.W.3d at 148. The
reviewing court may conclude that the evidence is
legally insufficient to support the jury’s rejection of
the defendant’s affirmative defense only if the
defendant conclusively proves his affirmative defense
such that “no reasonable jury [would be] free to think
otherwise.” Matlock, 392 S.W.3d at 670 (quoting
Tanner v. Nationwide Mut. Fire Ins. Co., 289 S.W.3d
828, 830 (Tex. 2009)).
3. Factual sufficiency of evidence of sudden
passion
Should the reviewing court determine that the
affirmative defense of sudden passion is not
established by the evidence as a matter of law, it may
look to the factual sufficiency of the evidence to
support the jury’s adverse finding on the affirmative
defense. In a factual-sufficiency review, the appellate
court “views the entirety of the evidence in a neutral
light, but it may not usurp the function of the jury by
substituting its judgment in place of the jury’s
assessment of the weight and credibility of the
witnesses’ testimony.” Id. at 671. When reversing on
factual insufficiency grounds, the appellate court
must set out the relevant evidence and explain
“precisely how the contrary evidence greatly
outweighs the evidence supporting the verdict,” and it
must clearly state “why the verdict is so much against
the great weight of the evidence as to be manifestly

42a
unjust, conscience-shocking, or clearly biased.” Id. If
the reviewing court so finds, it may reverse the trial
court’s judgment and remand the case for a new trial.
Id. at 672.
The “seminal case” on the standard of review of
factual sufficiency challenges to findings on
affirmative defenses is Meraz v. State. See Matlock,
392 S.W.3d at 670–71. In Meraz, the Court of Criminal
Appeals stated,
[W]hen the courts of appeals are called upon
to exercise their fact jurisdiction, that is,
examine whether the appellant proved [her]
affirmative defense or other fact issue where
the law has designated that the defendant has
the burden of proof by a preponderance of
evidence, the correct standard of review is
whether after considering all the evidence
relevant to the issue at hand, the judgment is
so
against
the
great
weight
and
preponderance of the evidence so as to be
manifestly unjust.
785 S.W.2d. at 154–55 (overruling prior law). In
establishing this standard, the court also made it clear
that when an appellate court examines all the
evidence concerning an affirmative defense and “then
seeks to determine if any rational trier of fact could
have found that the defendant failed to prove [her]
defense by a preponderance of the evidence, it is using
the same mental processes as it would have used had
it utilized against the great weight and
preponderance” of the evidence. Id. at 154. “The

43a
‘weight of the evidence’ refers to ‘a determination [by]
the trier of fact that a greater amount of credible
evidence supports one side of an issue or cause than
the other.’” Id. at 156 (quoting Tibbs v. Florida, 457
U.S. 31, 37–38, 102 S.Ct. 2211, 72 L.Ed.2d 652 (1982)).
Thus, by exercising its fact jurisdiction to decide
whether a defendant has borne her burden of proof on
an affirmative defense, such as sudden passion, the
court of appeals does not usurp the function of the
jury. See id. at 154; Smith, 355 S.W.3d at 148 (“In the
factual sufficiency review of the evidence, we review
all of the evidence neutrally, but we do not intrude on
the factfinder’s role as the sole judge of the weight and
credibility given to any witness’s testimony.”).
Unlike a finding of legal insufficiency of the
evidence, an appellate court’s determination that the
jury’s finding on sudden passion is “against the great
weight and preponderance of the evidence” does not
necessitate an acquittal. See Meraz, 785 S.W.2d at
156 (“[A]n appellate court’s disagreement with the
jurors’ weighing of the evidence does not require the
special deference accorded verdicts of acquittal.”)
(quoting Tibbs, 457 U.S. at 42, 102 S.Ct. 2211). And
that determination “does not prohibit a retrial if a
conviction is reversed on the basis that the jury’s
rejection of a defendant’s [affirmative defense] is
against the great weight and preponderance of the
evidence.” Id. Thus, the responsibility of this Court in
determining whether the jury’s negative finding on
sudden passion in the instant case is against the great
weight and preponderance of the evidence is a heavy
one.

44a
B. Application of the Law to the Facts of the
Case
1. Evidence supporting charge of sudden passion
Following the lead of the Court of Criminal
Appeals, I would first determine whether some
evidence from any source, even if weak or
contradicted, supported the instruction on sudden
passion submitted to the jury under the four-part test
set out in Beltran, specifically, whether (1) Rankin “in
fact acted under the immediate influence of a passion
such as terror, anger, rage, or resentment”; (2) her
sudden passion was in fact induced by some
provocation by Willis, the complainant, and was the
type of “provocation [that] would commonly produce
such a passion in a person of ordinary temper”; (3) she
committed the murder before regaining her capacity
for cool reflection; and (4) “a causal connection existed
‘between the provocation, passion, and homicide.’ ” See
Beltran, 472 S.W.3d at 289–90.
Here, the evidence at trial showed that the
battery in Rankin’s car died just after she left home to
go to the store to buy some snacks. She called her 13year-old daughter, M.R., to tell her the car had broken
down; and she called her boyfriend, Steven Willis, who
was driving her other car, to come help her jump-start
the car. She called Willis repeatedly, with no response.
Rankin testified that when he finally arrived, he “had
an attitude” and acted as though Rankin was
“bothering him to come help [her].” Willis pushed her
car into the parking lot of a washeteria and retrieved
the jumper cables from the trunk while Rankin

45a
retrieved a paring knife she had kept in the car since
an earlier accident to unlatch the damaged hood.
Rankin kept asking Willis where he had been and why
he hadn’t answered her calls, and he told her, “Shut
the fuck up.” She finally told him she did not want his
help, that she would figure it out, but that he could
not take her other car.
After Rankin and Willis began arguing, M.R.,
who had come outside to check on her mother, testified
that she saw Willis grab and lunge at her mother.
M.R. then left to retrieve a bat from their apartment.
Rankin testified that Willis exclaimed, “Bitch, I’ll kill
you!” She stated that Willis grabbed her “right wrist
with his left hand,” “squeezed it,” and began to “choke”
her, and she stated that he choked her for “at least 30
seconds.” Rankin started to “lose [her] breath” and felt
like she “was about to die,” so she pleaded with Willis
to release her neck. Rankin, who still had the paring
knife in her hand from attempting to open the hood of
her car, testified that she struggled to pry her wrist
from Willis’s hand. When she managed to break free,
she “called out for help from God,” “took the knife,”
and “poked him once to get him off of” her. She stated,
“I was terrified, I was scared, I was horrified.”
I would find this testimony to provide some
evidence that Rankin “in fact acted under the
immediate influence of a passion such as terror,
anger, rage, or resentment” arising out of her anger
and frustration with Willis and with the situation. See
id. at 290. I would also find these facts to be some
evidence that sudden passion was in fact induced in

46a
Rankin by some provocation by Willis, whether by his
words or by his actions, and was the type of
“provocation [that] would commonly produce such a
passion in a person of ordinary temper.” See id. And I
would find these facts to be some evidence that
Rankin committed the murder before regaining her
capacity for cool reflection. See id.
Finally, describing what happened after she
“poked” Willis with the knife, Rankin testified:
He lets go of me, he walks away, he gets
back into the Cutlass [the car Willis had
driven to the scene], he starts the Cutlass,
he reverses the Cutlass, he backs out of the
position the car was in, to drive off. . . .
When he gets to the intersection to exit the
parking lot, he doesn’t turn. The car stops.
He puts the car in park, he gets out of the
car, he walks a little bit behind the car,
and he drops.
Rankin testified that as Willis walked away
from her car, she sat in her car and cried with the door
open. She noticed Willis fall to the ground, and she ran
over to help him, but he was unconscious and
unresponsive. Rankin put Willis in the passenger seat
of the Cutlass and called 911. While she was speaking
to the 911 operator, Rankin decided that she could get
to the hospital quicker than an ambulance. She “took
off,” “doing 95 [mph] down Fondren the whole way.”
M.R. returned from the apartment with the bat and
saw Rankin’s car there, but the Cutlass, Rankin, and
Willis were gone. However, several drops of blood

47a
were subsequently found on the ground in the area
where Rankin testified she picked Willis up and got
him back into the car to drive to the hospital.
Taking this evidence as true for purposes of
submitting the issue of sudden passion to the jury, I
would find this to be some evidence that “a causal
connection existed ‘between the provocation, passion,
and homicide,’ ” as opposed to a murder committed in
cool reflection without circumstances causing
passionate anger and frustration and without
immediate provocation. See id.
In sum, I would find that Rankin submitted
“some evidence” to support each of the elements of her
sudden passion affirmative defense without
considering its source or strength, thereby justifying
the submission of the issue to the jury. Thus, I would
turn to whether the evidence was legally sufficient to
support the jury’s adverse finding on the sudden
passion issue.
2. Legal sufficiency of evidence of sudden passion
To determine whether the evidence was legally
sufficient to support the jury’s adverse finding on
sudden passion, I would “first search the record for
evidence favorable to the [adverse] finding,
disregarding all contrary evidence unless a reasonable
factfinder could not,” and, if I found no evidence
supporting the jury’s adverse finding on sudden
passion, I would then “determine whether the
contrary was established as a matter of law.” See

48a
Matlock, 392 S.W.3d at 669; Moncivais, 425 S.W.3d at
407–08; Smith, 355 S.W.3d at 148.
Here, I agree with the majority that there was
more than a scintilla of evidence to support the jury’s
adverse finding on sudden passion, but barely more,
considering all four factors of sudden passion.
Detective Hernandez, who questioned Rankin on the
night Rankin stabbed Willis, testified that Rankin did
not mention that Willis had choked her. Rankin
herself testified that she did not tell Detective
Hernandez because she was “afraid that once [Willis]
got out of the hospital, if they were to arrest him, he
was going to come hurt [her].” Instead, she told Officer
R. Lujan that she realized later that the knife in her
right hand had “accidentally” penetrated Willis’s
chest when he had bent over her. She changed her
story at trial, however, and testified that she “poked”
Willis to get him off of her. Also Lujan, who
interviewed Rankin that night, testified that she did
not tell him that Willis had tried to choke or otherwise
hurt her, and she did not appear injured. He did not
see any marks indicating she had been choked.
Therefore, I conclude that more than a scintilla of
evidence supported the jury’s adverse finding on
sudden passion—namely the officers’ testimony and
Rankin’s changed story—so that the evidence was
legally sufficient to support the jury’s rejection of
sudden passion. See Matlock, 392 S.W.3d at 669.
I would turn, therefore, to whether the evidence
was factually sufficient to support the jury’s adverse
finding on sudden passion or whether that finding was

49a
against the great weight and preponderance of the
evidence presented at trial.
3. Factual sufficiency of evidence of sudden
passion
Under
Meraz
and
Matlock,
factually
insufficient evidence supports an adverse finding on
an affirmative defense, such as sudden passion, if,
when considering all of the evidence, the adverse
finding was “so ‘against the great weight and
preponderance’ of that evidence [as] to be manifestly
unjust.” Matlock, 392 S.W.3d at 671 (quoting Meraz,
785 S.W.2d at 154–55).
First, regardless of Rankin’s testimony as to
her state of mind and her intent, intent is typically
inferred from the circumstances under which a
culpable act is committed. See Guevara v. State, 152
S.W.3d 45, 50 (Tex. Crim. App. 2004) (“Intent may
also be inferred from circumstantial evidence such as
acts, words, and the conduct of the appellant.”). And,
in this case, there can be no doubt that the jury
disbelieved Rankin’s claim that she did not intend to
kill Willis at the moment she stabbed him in that it
convicted her of murder, an intentional crime. See
TEX. PENAL CODE ANN. § 19.02(b)(1)–(2) (setting
out mens rea of murder). The inquiry therefore turns
to whether her crime met the sudden passion criteria
under the circumstances in which it occurred. Cf.
id. § 19.02(d) (providing for affirmative defense of
sudden passion at punishment stage of trial after
defendant has been found guilty of murder at guiltinnocence stage).

50a
The evidence in this case clearly satisfies all
four criteria for submitting the issue of sudden
passion to the jury: (1) the unrebutted evidence
overwhelmingly indicates that Rankin acted under
the immediate influence of “terror, anger, rage, or
resentment”; (2) the unrebutted evidence likewise
shows that Willis provoked her anger and resentment
by refusing to answer her calls, then, when he did
arrive at the scene, refusing to tell her where he had
been, acting “bothered” and unwilling to help her, and,
by her and M.R.’s testimony, lunging at her and
choking her, a “provocation [that] would commonly
produce such a passion in a person of ordinary
temper”; (3) she immediately committed the murder
with the paring knife she held in her hand to open the
hood as soon as she loosened Willis’s grip on her neck
and before she could have regained her capacity for
cool reflection; and (4) clearly “a causal connection
existed ‘between the provocation, passion, and
homicide.’ ” See Beltran, 472 S.W.3d at 289–90. So the
question becomes how strong the evidence for and
against sudden passion was in this case.
Rankin testified that she always kept a knife in
her car to open its damaged hood because she often
experienced electrical problems, and she had the knife
in her hand to unlatch the hood as her altercation with
Willis escalated. This fact argues strongly against a
finding that Rankin planned to murder Willis and
armed herself to do so. Instead, it is evidence that she
was overtaken by sudden passion in that she used a
paring knife she already had in her hand to “poke”
Willis in the chest—not a weapon she had to fetch or

51a
had brought to the scene for the purpose of stabbing
Willis. And that she was able to thrust that short knife
into his chest before he could ward off the blow
indicates that he was very close to her when she
stabbed him, as Rankin testified.
There was also evidence that Rankin was the
victim of domestic violence at the hands of Willis, and
photographs of Rankin’s black eye and bruises from a
previous altercation were admitted into evidence.
This evidence, while insufficient in itself to support a
finding of sudden passion, does support the inference
that Rankin had reason to fear Willis and that Willis
had a history of harming Rankin when angry. Rankin
testified that, in this case, the argument escalated
into a physical altercation—just as in their past
disputes—and Willis choked her before she “poked”
him with the knife after feeling like she would die
from strangulation, supporting her claims of both
passion and provocation. There is no contravening
evidence other than Rankin’s failure to tell the police
who interviewed her that she had been choked and
their failing to notice signs of choking on their own.
And M.R.’s testimony that she ran to retrieve a bat to
get Willis off her mother is corroborating evidence
that Rankin’s story was true—as is the evidence of the
marks found on her neck and wrist that night.
Rankin also told Detective Hernandez that
Willis walked away towards the Cutlass, sat in the car
and then got out again, “took off his shirt,” “grabbed
his chest,” and fell to the ground. That is when Rankin
first called the police and then rushed Willis to the

52a
hospital. Rather than pursue Willis when he walked
away, Rankin sat in her car and cried until she noticed
Willis collapse to the ground. She called 911 and drove
about 95 miles per hour to take Willis to the hospital
for his stab wound. There is no contrary evidence as
to what happened and the sequence of events. Rather,
Rankin’s story is supported by the evidence that
several drops of blood were subsequently found on the
ground in the area where Rankin testified she picked
Willis up and got him back into the car to drive to the
hospital. And it is undisputed that she did, in fact, call
the police when she saw him stop the car and collapse
and that she immediately rushed him to the hospital
in an effort to save him. These are all exactly the types
of actions that supported submission of a jury
instruction on sudden passion in both Beltran and
Trevino, and they support a finding of sudden passion
here where, again, there is no contrary evidence.
In short, there is no evidence to support the
conclusion that Rankin did not act out of sudden
passion but acted in cool reflection. The only evidence
to the contrary is that she held back details of her
story from the police who interrogated her by not
reporting that Willis choked her or showing signs of
choking that they noticed on their own. But whether
Willis choked her or not, there is absolutely no
evidence to support the conclusion that she brought
her knife to the scene to stab him, that she was not
angry and frustrated when she stabbed him, and that
she intended to kill him.

53a
The jury also heard other evidence from which
it could have found sudden passion. M.R. testified that
she peered outside the apartment because her mom
was taking too long to return home. She saw Willis
drive into the parking lot across the street and park
next to Rankin’s car. M.R. also testified that she heard
Willis yelling, saw him behaving aggressively, and
noticed that “his nostrils had flared up” and that his
face turned “very bright red” with “rage.” Finally,
M.R. testified that she saw Willis grab and lunge at
Rankin, causing her to run back into the house to get
a bat to defend her mother. And photographs taken of
Rankin that night and admitted into evidence showed
several red marks on her neck and wrist.
Although the officers who interviewed Rankin
on the evening of the stabbing testified that Rankin
omitted the details about the argument and physical
altercation when she described to them how she
stabbed Willis and that she varied her story, and
although they testified that they did not see any signs
of injury to her, this is not in itself evidence that
things did not occur as Rankin and M.R. testified.
Their accounts of the material facts are not only
consistent with each other but supported by physical
evidence. Even if a reasonable jury believed that
Rankin was not telling the truth when she said Willis
choked her, it would still have to disregard the
physical evidence of the marks on her neck and wrist.
Also, importantly, no evidence regarding the
circumstances under which Willis was killed supports
the mens rea of murder prepared for in advance and

54a
committed in cool reflection; instead, the
uncontroverted evidence supports sudden passion
even if Willis did not choke Rankin. That is, the
uncontroverted evidence supports only the conclusion
that Rankin was angry at Willis and frustrated by his
refusal to answer her phone calls, his refusal to
explain where he had been, and his language towards
her. And this uncontroverted evidence supports the
inference that it was this provocation that caused her
to use the knife she was already holding in her hand
to pry open the hood of her disabled car to “poke”
Willis. The only reasonable inference from these facts
is that “a causal connection existed ‘between the
provocation, passion, and homicide,’ ” as opposed to a
murder committed in cool reflection under
circumstances that did not indicate passionate anger
and frustration at Willis’s behavior, the immediate
provocation for Rankin’s stabbing him. See Beltran,
472 S.W.3d at 290.
I see no evidence to support an essentially
different scenario with respect to any of the factors
required to prove sudden passion as opposed to
murder. Literally nothing supports the majority’s
characterization of the evidence set out above as
showing that Rankin was capable of “cool reflection”
before, during, and after the stabbing. Yet the
majority characterizes Rankin’s past history with
Willis and her growing anger and frustration with him
and telling him she would fix the car herself as
evidence of her “cool reflection” before poking him
with the knife. Op. at 185. It characterizes her
“ ‘call[ing] out for help from God,’ despite losing her

55a
breath from Willis’s chokehold’ ” as evidence of her
“ability to pause” and coolly reflect as she “poked” him
with the paring knife she had taken out to open the
hood and still held in her hand. Id. at 185. It
characterizes her sitting in her car and crying after
the stabbing as “show[ing] that she was capable of cool
reflection.” Id. at 185. And it concludes from this that
“Rankin’s own testimony does not support a finding
that Rankin had acted under the immediate influence
of sudden passion arising from adequate cause.” Id.
Yet these are exactly the type of facts that the
Texas Court of Criminal Appeals has described as
proof of sudden passion—not its direct opposite. See
Beltran, 472 S.W.3d at 293–95 (holding that evidence
supported defendant’s requested jury instruction on
sudden passion where there was evidence that (1)
defendant acted under immediate influence of terror,
testifying that he “panicked” and was “screaming in
panic” when he awoke to find complainant behind him
licking his anus, thus (2) providing evidence of
provocation by complainant that (3) could have
rendered defendant incapable of cool reflection before
acting, where (4) jury could arguably have deduced,
from defendant’s testimony, that complainant’s sexual
assault triggered chain reaction that resulted in
defendant’s crying and panicked screaming and,
ultimately, in complainant’s stabbing death); Trevino,
100 S.W.3d at 234–35, 239–41 (holding that
defendant was entitled to jury charge on sudden
passion where detective testified that defendant
informed him (1) he had altercation with complainant
over phone numbers of other women she found in his

56a
wallet; (2) she confronted defendant with gun and
pulled trigger; (3) defendant retrieved his own gun,
and complainant was shot during struggle for guns;
(4) defendant’s sister testified that when defendant
called her after shooting occurred he “was freaking
out” and, when she arrived, she found defendant
“crying and shaking”; and (5) another detective
testified that when he entered defendant’s home,
defendant was kneeling over complainant and said,
“you gotta help her”).
In my view, the majority’s opinion is
contradictory to the law. If its lead were to be followed,
there could never be a sustainable jury finding of
sudden passion, and the defendant’s burden on
sudden passion would be effectively raised to proof
beyond a reasonable doubt. The defense would be
negated by the very facts held by the Court of
Criminal Appeals to sustain it.
Viewing all of the evidence in a neutral light, I
would hold that the jury’s finding adverse to Rankin’s
sudden passion defense was so against the great
weight and preponderance of the evidence as to be
manifestly unjust. See Matlock, 392 S.W.3d at 671.
Accordingly, I would sustain Rankin’s third issue.
Conclusion
I would reverse the trial court’s judgment
convicting appellant of murder, and I would remand
the case for a new punishment hearing.

57a
CAUSE NO. 1325037
IN THE 209TH DISTRICT COURT
OF HARRIS COUNTY, TEXAS
JANUARY TERM, A. D., 2019
THE STATE OF TEXAS
vs.
ANGEL LEE RANKIN
Members of the Jury:
Having found the defendant, Angel Lee Rankin,
guilty of murder, it now becomes your duty to assess
the punishment in this case.
Our statutes provide that the punishment for
murder shall be by confinement in the institutional
division of the Texas Department of Criminal Justice
for not less than five years nor more than ninety-nine
years or life. In addition thereto, a fine not to exceed
$10,000.00 may be assessed.
Therefore, you will assess the punishment of
the defendant upon said finding of guilt at
confinement in the institutional division of the Texas
Department of Criminal Justice for any term of not
less than five years nor more than ninety-nine years
or life, and the jury in its discretion may, if it chooses,
assess a fine in any amount not to exceed $10,000.00.

58a
SPECIAL ISSUE
Now, having found the defendant guilty of the
offense of murder, you must determine from a
preponderance of the evidence whether or not she
caused the death under the immediate influence of
sudden passion arising from an adequate cause.
The burden of proof is by a preponderance of the
evidence, and that burden rests on the defendant. By
the term “preponderance of the evidence” is meant the
greater weight of the credible evidence.
“Sudden passion” means passion directly
caused by and arising out of provocation by the
individual killed or another acting with the person
killed which passion arises at the time of the offense
and is not solely the result of former provocation.
“Adequate cause” means cause that would
commonly produce a degree of anger, rage,
resentment, or terror in a person of ordinary temper,
sufficient to render the mind incapable of cool
reflection.
Now, bearing in mind the foregoing instruction,
if you believe the defendant proved by a
preponderance of the evidence that the defendant,
having committed the offense of murder, caused the
death of Steven Willis, under the immediate influence
of sudden passion arising from an adequate cause, you
must make an affirmative finding as to the special
issue, and the punishment you must assess is by
confinement in the institutional division of the Texas

59a
Department of Criminal Justice for any term of not
less than two years or more than twenty years. In
addition, a fine not to exceed $10,000.00 may be
imposed.
But if you do not believe the defendant proved
by a preponderance of the evidence that the
defendant, having committed the offense of murder,
caused the death of Steven Willis, under the
immediate influence of sudden passion arising from
an adequate cause, you must make a negative finding
as to the special issue, and the punishment you must
assess is by confinement in the institutional division
of the Texas Department of Criminal Justice for any
term of not less than five years or more than ninetynine years or life. In addition, a fine not to exceed
$10,000.00 may be imposed.
Under the law applicable in this case, the
defendant, if sentenced to a term of imprisonment,
may earn time off the period of incarceration imposed
through the award of good conduct time. Prison
authorities may award good conduct time to a prisoner
who exhibits good behavior, diligence in carrying out
prison work assignments, and attempts at
rehabilitation. If a prisoner engages in misconduct,
prison authorities may also take away all or part of
any good conduct time earned by the prisoner.
It is also possible that the length of time for
which the defendant will be imprisoned might be
reduced by the award of parole.

60a
Under the law applicable in this case, if the
defendant is sentenced to a term of imprisonment, she
will not become eligible for parole until the actual time
served equals one-half of the sentence imposed or
thirty years, whichever is less, without consideration
of any good conduct time he may earn. Eligibility for
parole does not guarantee that parole will be granted.
It cannot accurately be predicted how the
parole law and good conduct time might be applied to
this defendant if she is sentenced to a term of
imprisonment, because the application of these laws
will depend on decisions made by prison and parole
authorities.
You may consider the existence of the parole
law and good conduct time. However, you are not to
consider the extent to which good conduct time may
be awarded to or forfeited by this particular
defendant. You are not to consider the manner in
which the parole law may be applied to this particular
defendant.
The burden of proof in all criminal cases rests
upon the State throughout the trial and never shifts
to the defendant.
You are further instructed that in fixing the
defendant’s punishment, which you will show in your
verdict, you may take into consideration all the facts
shown by the evidence admitted before you in the full
trial of this case and the law as submitted to you in
this charge.

61a
You are not to discuss among yourselves how
long the accused would be required to serve the
sentence that you impose. Such matters come within
the exclusive jurisdiction of the Board of Pardons and
Paroles division of the Texas Department of Criminal
Justice and the Governor of the State of Texas, and
must not be considered by you.
Your verdict must be by a unanimous vote of all
members of the jury. In arriving at the amount of
punishment to be assessed, it will not be proper for
you to fix the same by lot, chance, any system of
averages, or any other method than by a full, fair, and
free exercise of the opinion of the individual jurors,
and you must not refer to nor discuss any matter not
in evidence before you.
You are the exclusive judges of the facts proved,
of the credibility of the witnesses and of the weight to
be given their testimony, but you are bound to receive
the law from the court, which has been given you.
No one has any authority to communicate with
you except the officer who has you in charge. During
your deliberations in this case, you must not consider,
discuss, nor relate any matters not in evidence before
you. You should not consider nor mention any
personal knowledge or information you may have
about any fact or person connected with this case
which is not shown by the evidence. After you have
reached a unanimous verdict, the Foreman will certify
thereto by using the appropriate form attached to this
charge and signing the same as Foreman.

62a
Following the arguments of counsel, you will
retire to deliberate your verdict.
/s/_____________________________
Brian E. Warren, Judge
209th District Court
Harris County, TEXAS

63a
CAUSE NO. 1325037
IN THE 209TH DISTRICT COURT
OF HARRIS COUNTY, TEXAS
JANUARY TERM, A. D., 2019
THE STATE OF TEXAS
vs.
ANGEL LEE RANKIN
SPECIAL ISSUE
Do you the Jury find that the defendant proved
by a preponderance of the evidence that the
defendant, having committed the offense of murder,
caused the death of Steven Willis under the
immediate influence of sudden passion arising from
an adequate cause?
not.”

The Jury will answer either, “We do” or “We do

ANSWER: We do not
/s/_________________________
Foreman of the Jury

64a
*

*

*

“We, the Jury, having found the defendant,
Angel Lee Rankin, guilty of murder, assess her
punishment at confinement in the institutional
division of the Texas Department of Criminal Justice
for 15 years.”
/s/_________________________
Foreman of the Jury

65a
COURT OF CRIMINAL APPEALS OF TEXAS
COA No. 01-19-00156-CR
PD-0073-21
Tr. Ct. No. 1325037
[Filed February 24, 2021]
RANKIN, ANGEL LEE
On this day, the Appellant’s petition for
discretionary review has been refused.
Deana Williamson, Clerk

66a
Statutory Provisions Involved Appendix
Tex. Penal Code § 9.31
(a) Except as provided in Subsection (b), a
person is justified in using force against
another when and to the degree the actor
reasonably
believes
the
force
is
immediately necessary to protect the actor
against the other's use or attempted use of
unlawful force. The actor's belief that the
force was immediately necessary as
described by this subsection is presumed
to be reasonable if the actor:
(1) knew or had reason to believe that the
person against whom the force was used:
(A) unlawfully and with force entered, or
was attempting to enter unlawfully and
with force, the actor's occupied habitation,
vehicle, or place of business or
employment;
(B) unlawfully and with force removed, or
was attempting to remove unlawfully and
with force, the actor from the actor's
habitation, vehicle, or place of business or
employment; or
(C) was committing or attempting to
commit aggravated kidnapping, murder,
sexual assault, aggravated sexual assault,
robbery, or aggravated robbery;

67a
(2) did not provoke the person against
whom the force was used; and
(3) was not otherwise engaged in criminal
activity, other than a Class C
misdemeanor that is a violation of a law or
ordinance regulating traffic at the time
the force was used.
(b) The use of force against another is not
justified:
(1) in response to verbal provocation alone;
(2) to resist an arrest or search that the
actor knows is being made by a peace
officer, or by a person acting in a peace
officer's presence and at his direction, even
though the arrest or search is unlawful,
unless the resistance is justified under
Subsection (c);
(3) if the actor consented to the exact force
used or attempted by the other;
(4) if the actor provoked the other's use or
attempted use of unlawful force, unless:
(A) the actor abandons the encounter, or
clearly communicates to the other his
intent to do so reasonably believing he
cannot safely abandon the encounter; and
(B) the other nevertheless continues or
attempts to use unlawful force against the
actor.

68a
Tex. Penal Code § 9.32
(a) A person is justified in using deadly
force against another:
(1) if the actor would be justified in using
force against the other under Section 9.31;
and
(2) when and to the degree the actor
reasonably believes the deadly force is
immediately necessary:
(A) to protect the actor against the other's
use or attempted use of unlawful deadly
force; or
(B) to prevent the other's imminent
commission of aggravated kidnapping,
murder, sexual assault, aggravated sexual
assault, robbery, or aggravated robbery.
(b) The actor's belief under Subsection
(a)(2) that the deadly force was
immediately necessary as described by
that subdivision is presumed to be
reasonable if the actor:
(1) knew or had reason to believe that the
person against whom the deadly force was
used:
(A) unlawfully and with force entered, or
was attempting to enter unlawfully and
with force, the actor's occupied habitation,

69a
vehicle, or
employment;

place

of

business

or

(B) unlawfully and with force removed, or
was attempting to remove unlawfully and
with force, the actor from the actor's
habitation, vehicle, or place of business or
employment; or
(C) was committing or attempting to
commit an offense described by Subsection
(a)(2)(B);
(2) did not provoke the person against
whom the force was used; and
(3) was not otherwise engaged in criminal
activity, other than a Class C
misdemeanor that is a violation of a law or
ordinance regulating traffic at the time
the force was used.
(c) A person who has a right to be present
at the location where the deadly force is
used, who has not provoked the person
against whom the deadly force is used, and
who is not engaged in criminal activity at
the time the deadly force is used is not
required to retreat before using deadly
force as described by this section.
(d) For purposes of Subsection (a)(2), in
determining whether an actor described
by Subsection (c) reasonably believed that
the use of deadly force was necessary, a

70a
finder of fact may not consider whether the
actor failed to retreat.
Tex. Penal Code § 19.02
(a) In this section:
(1) “Adequate cause” means cause that
would commonly produce a degree of
anger, rage, resentment, or terror in a
person of ordinary temper, sufficient to
render the mind incapable of cool
reflection.
(2) “Sudden passion” means passion
directly caused by and arising out of
provocation by the individual killed or
another acting with the person killed
which passion arises at the time of the
offense and is not solely the result of
former provocation.
(b) A person commits an offense if he:
(1) intentionally or knowingly causes the
death of an individual;
(2) intends to cause serious bodily injury
and commits an act clearly dangerous to
human life that causes the death of an
individual; or
(3) commits or attempts to commit a
felony, other than manslaughter, and in
the course of and in furtherance of the
commission or attempt, or in immediate

71a
flight from the commission or attempt, he
commits or attempts to commit an act
clearly dangerous to human life that
causes the death of an individual.
(c) Except as provided by Subsection (d),
an offense under this section is a felony of
the first degree.
(d) At the punishment stage of a trial, the
defendant may raise the issue as to
whether he caused the death under the
immediate influence of sudden passion
arising from an adequate cause. If the
defendant proves the issue in the
affirmative by a preponderance of the
evidence, the offense is a felony of the
second degree.

